No. ______
IN THE

Supreme Court of the United States
MICHAEL NANCE,
Petitioner,
v.
COMMISSIONER, GEORGIA DEPARTMENT OF CORRECTIONS, AND WARDEN,
GEORGIA DIAGNOSTIC AND CLASSIFICATION PRISON,
Respondents.
CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.1(h), I certify that the document contains 7,474
words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 17, 2021.

/s/ Matthew S. Hellman
Matthew S. Hellman

